<html>
<title> - EMERGENCY PREPAREDNESS, AGING, AND SPECIAL NEEDS: PREPARED VS SCARED!</title>
<body><pre>[Senate Hearing 111-209]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-209

 EMERGENCY PREPAREDNESS, AGING AND SPECIAL NEEDS: PREPARED VS. SCARED!

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             JUNE 24, 2009

                               __________

                            Serial No. 111-9

         Printed for the use of the Special Committee on Aging



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                  U.S. GOVERNMENT PRINTING OFFICE
54-128 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    MEL MARTINEZ, Florida
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
BILL NELSON, Florida                 BOB CORKER, Tennessee
ROBERT P. CASEY, Jr., Pennsylvania   ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
MARK UDALL, Colorado
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado
ARLEN SPECTER, Pennsylvania
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Mel Martinez........................     1
Opening Statement of Senator Herb Kohl...........................     3

                           Panel of Witnesses

Statement of Richard E. Besser, M.D., Director, Coordinator 
  Office for Terrorism, Preparedness and Emergency Response, 
  Centers for Disease Control and Prevention, Atlanta, GA........     4
Statement of Timothy Manning, Deputy Administrator for National 
  Preparedness, Federal Emergency Management Agency, Washington, 
  DC.............................................................    20
Statement of Douglas Beach, Secretary, Florida Department of 
  Elder Affairs, Tallahassee, FL.................................    28
Statement of LuMarie Polivka-West, Senior Vice President of 
  Policy, Florida Health Care Association, Tallahassee, FL.......    40
Statement of Sandy Markwood, Chief Executive Officer, National 
  Association of Area Agencies on Aging, Washington, DC..........    50

                                 (iii)

  

 
 EMERGENCY PREPAREDNESS, AGING, AND SPECIAL NEEDS: PREPARED VS SCARED!

                              ----------                              --



                        WEDNESDAY, JUNE 24, 2009

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:20 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Mel Martinez 
presiding.
    Present: Senators Martinez [presiding] and Kohl.

   OPENING STATEMENT OF SENATOR MEL MARTINEZ, RANKING MEMBER

    Senator Martinez. Good morning. We'll call the hearing to 
order and thank the Chairman for allowing us to hold this 
hearing today.
    We are pleased to have an excellent group of witnesses with 
us. So, I want to thank all of you for joining us as we discuss 
how emergency preparedness relates to seniors, and those 
seniors living with special needs, particularly. We're looking 
forward to hearing perspectives of some of our Federal, State, 
and local partners about the unique needs of elderly Americans 
to better prepare for when a disaster strikes.
    As we begin the 2009 hurricane season, I am reminded how 
older Americans are often the hardest hit when Mother Nature is 
at its worst. A prime example of this occurred during Hurricane 
Katrina, where nearly half of all storm-related deaths involved 
residents 75 years and older, and the average age for 
fatalities was 69. In hurricanes and other disasters, no 
Americans should be in endangered by virtue of their age, 
living situation, or physical situation. As we have learned, 
threats vary from State to State, from regional to region. 
Whether it's a flood, blizzard, earthquake, fire, or even a 
pandemic emergency, responders at every level ought to be 
prepared to assist our most vulnerable citizens.
    We know from past experiences with natural or manmade 
disasters that all Americans, especially those with special 
needs, suffer when there is a lack of preparation, information, 
and coordination. That's why we as public servants, have a 
responsibility to help inform the general public about the 
value of being personally prepared.
    For seniors and seniors living with special needs, this 
includes having something as simple as a communications plan, 
an emergency kit, an extra pair of reading glasses, or even a 
hearing aid. Such a preparation may mean the difference between 
life or death.
    Emergency responders in my home State of Florida have taken 
significant steps to address these unique needs of seniors. It 
is not an overstatement to say that our model can serve as a 
model for our nation. One innovation sets up the incident 
command center model in nursing homes. Those go a long way in 
ensuring nursing home employees are trained in emergency 
preparedness procedures and can coordinate a response in the 
event of an emergency. It will also help to avoid mistakes like 
those made during Hurricane Katrina, where many long-term care 
providers were simply untrained and unprepared.
    Another concern has been what to do for seniors in the 
event of a national pandemic. We have all read about the H1N1 
swine flu outbreak. Although the elderly were not at great 
risk, we must be prepared for the upcoming flu season, where 
seniors are among the most vulnerable, along with the 
possibility of a return of a mutated H1N1 flu strain.
    In many instances during pandemics, caregivers may be more 
vulnerable to the flu than patients, so we must ask ourselves--
how do we ensure that there are enough doctors, nurses, aides, 
and other medical personnel in the event that these caregivers 
are infected?
    Most seniors do not receive formal care in their homes, 
communities, or in the 24-hour facilities. For these elderly, 
and for those living at home and in need of a long-term care, 
the State Units on Aging and Area Agencies on Aging are 
invaluable.
    Area Agencies and State units actively seek to reach all 
seniors to help them plan and prepare for a natural disaster. 
They are the key connector to the array of government and 
private entities offering senior services and recovery before, 
during, and after a disaster. In Florida, Area Agencies are on 
the forefront of innovation and planning, preparing, and 
responding to disasters and emergencies.
    I'm proud to note that the Florida Department of Elder 
Affairs is seen as a model in disaster response and recovery 
throughout the country, and is often consulted by other State 
Units on Aging for guidance and experience. Florida has the 
highest proportion of elderly of any State, and also a high 
incidence of disasters and emergencies, so it is expected that 
Florida would have a first-rate preparedness and response 
system. But, each year, new threats emerge, and old threats 
largely remain. We must not forget the special needs of our 
seniors residing in any State facing natural, manmade, or 
public health emergencies.
    I want to thank our witnesses for joining us today. I look 
forward to hearing your thoughts and ideas on innovations and 
challenges for emergency preparedness and response for seniors 
across the nation.
    Now, I'd turn to Chairman Kohl for your comments, sir.

        OPENING STATEMENT OF SENATOR HERB KOHL, CHAIRMAN

    The Chairman. Good morning. I'd like to thank Senator 
Martinez for holding today's hearing on emergency preparedness 
and the elderly.
    This issue has been of great concern to me since we learned 
of the many tragedies that occurred when Hurricane Katrina 
struck, now nearly 4 years ago.
    One of today's witnesses will tell us that, when Katrina 
hit, only 15 percent of the population in New Orleans was age 
60 or older, and yet 70 percent of the hurricane-related deaths 
were seniors. We did see then that more needed to be done to 
evacuate seniors and the disabled in the face of an impending 
disaster. As a result, I included provisions in the 9/11 
Commission Act of 2007 to train public transportation workers 
to meet the evacuation needs of seniors during an emergency. 
While legislative steps such as these have been taken since 
2005, more work remains ahead.
    Last year, I released a GAO report on how prepared the 
Government is to evacuate vulnerable populations, such as 
nursing-home residents, in the event of an emergency. The study 
found that the Department of Homeland Security needs to improve 
requirements for evacuation planning by State and local 
entities that receive DHS funding.
    Last month, I followed up with DHS Secretary Janet 
Napolitano, and, although progress has been made under the new 
administration, it still does not appear that emergency 
preparedness requirements have been strengthened.
    As we all know, disaster can strike at any time. Just last 
week, parts of Wisconsin experienced heavy flooding, leaving 
some of my constituents stranded. We cannot hope to be ready 
for these kinds of emergencies tomorrow; we have to be ready 
today.
    So, we thank you, Senator Martinez, once again, for holding 
this hearing, and we thank all of our witnesses for being here 
today. I think we all understand that it's clear that there's 
more work to be done.
    Thank you.
    Senator Martinez. Thank you, Mr. Chairman.
    Let me now introduce the witnesses we have with us today. 
Again, we're grateful that you all are here.
    First, we have Dr. Richard Besser, M.D., the Director of 
the Coordinating Office for Terrorism, Preparedness, and 
Emergency Response, at the Centers for Disease Control and 
Prevention. Dr. Besser was the Acting CDC Director during the 
recent H1N1 influenza outbreak. His current office is charged 
with protection for the Nation from all threats to the public's 
health.
    We also have with us Timothy Manning, Deputy Director of 
the National Preparedness Directorate for the Department of 
Homeland Security's Federal Emergency Management Agency, FEMA. 
Prior to FEMA, Mr. Manning served as Director of the New Mexico 
Department of Homeland Security and Emergency Management and 
homeland security advisor to the Governor.
    We, next, have Doug Beach, Secretary of Florida's 
Department of Elder Affairs. On February 13, 2007, Governor 
Crist appointed Dr. Beach as the Secretary for the Department 
of Elder Affairs in Florida. He has worked on the Aging Network 
for more than 12 years, most recently serving as the Chief 
Executive Officer of the Seniors Resource Alliance, the Area 
Agency on Aging of Central Florida, where we had an opportunity 
to work together.
    LuMarie Polivka-West is Senior Vice President of policy of 
Florida Health Care Association. Ms. West is responsible for 
the planning and implementation of long-term care related 
policies and programs and staffing of the Quality Credentialing 
Program and serves as the principal investigator for a John A. 
Hartford Foundation Disaster Preparedness Grant.
    Sandy Markwood is the Chief Executive Officer of the 
National Association of Area Agencies on Aging. She has more 
than 30 years' experience in the development and delivery of 
aging health, human services, housing, and transportation 
programs in counties and cities across the nation.
    Welcome, all. We'll hear from you, Mr. Besser, first, your 
statements.

  STATEMENT OF RICHARD E. BESSER, M.D., DIRECTOR, COORDINATOR 
  OFFICE FOR TERRORISM, PREPAREDNESS AND EMERGENCY RESPONSE, 
    CENTERS FOR DISEASE CONTROL AND PREVENTION, ATLANTA, GA

    Dr. Besser. Thank you. Good morning, Chairman Kohl, Ranking 
Member Martinez, and other distinguished members.
    I am Dr. Rich Besser, Director of the Coordinating Office 
for Terrorism, Preparedness, and Emergency Response at the 
Centers for Disease Control and Prevention. I want to thank you 
for the opportunity to discuss our work to better protect the 
health of older adults during emergencies, such as the current 
influenza pandemic. Many of us have parents and grandparents 
who rely on the help of families and communities during 
emergencies. This help is critically important at this time.
    The risk to older adults is serious. As was stated, more 
than 70 percent of the people who died in Louisiana as a result 
of Hurricane Katrina were older than age 60. Most died in their 
homes, in hospitals, or nursing homes. The increased risk faced 
by older adults occurs for a variety of reasons, such as health 
status, reliance on supportive services, and the need for 
assistance with transportation. More than 80 percent of older 
adults have at least one chronic condition, such as diabetes or 
heart disease. Disruptive medical and supportive services 
during emergencies put older adults with chronic conditions at 
especially high risk.
    The Nation has made progress in protecting the health of 
older adults during emergencies. For example, during the 2008 
hurricane season response, many nursing homes and hospitals 
were evacuated before hurricanes hit. A marked improvement 
compared to the evacuation that occurred during Hurricane 
Katrina.
    I'd also like to mention some progress at CDC. We've 
developed guidelines on the H1N1 influenza pandemic for 
vulnerable populations, including older adults, and for the 
clinicians who care for them. We've also engaged with tribal 
nations to learn from them how to better reach older adults in 
their communities to prepare for an influenza pandemic. We 
support State and local public health departments in their 
efforts to protect older adults during emergencies, such as 
through the Public Health Emergency Preparedness Cooperative 
Agreement.
    Although we've made progress, more still needs to be done 
to improve our ability to assist older adults during 
emergencies. I'd like to highlight three main areas.
    First, we must assure that healthcare is available. Public 
health emergencies can cause disruptions in healthcare system, 
leaving to negative health effects for older adults. We need to 
enable older adults and their caregivers to have the necessary 
medications to avoid exacerbations of chronic diseases and 
other conditions.
    Moreover, emergency shelters need to have the necessary 
capabilities, supplies, and other resources to respond to the 
needs of older adults and other vulnerable evacuees.
    Implementing electronic health records nationwide could 
help greatly. This could make it easier for older adults to 
identify their medications and renew prescriptions during an 
emergency, even if they're in a different city or State.
    We need to focus on prevention and wellness. A healthy 
community will be more resilient to the negative impact of 
public health emergencies. Only about one-third of older adults 
are up to date on all recommended preventive services. 
Increasing the use of immunizations and other key clinical 
preventive services will make our older--will make our elderly 
population more healthy and better able to withstand and 
recovery from the added stress of a public health emergency.
    Finally, we need to better address the needs of older 
adults in preparedness and response. Despite recent 
improvements, community healthcare delivery systems and 
supportive services still need to be better integrated into 
emergency planning efforts. Protecting the health of older 
adults during emergencies requires cross-sector partnerships, 
strong community engagement, and a committed focus on 
integrating the needs of older adults in all preparedness and 
response activities. Progress is difficult, because the 
economic crisis has led to job losses in public health 
departments and budget shortfalls among hospitals and 
healthcare systems.
    In closing, preventing illness and disease are, not only 
essential components of health reform, but are also critical to 
our nation's overall health protection and preparedness 
efforts. As Dr. David Satcher, a former CDC director and U.S. 
Surgeon General, has noted, the same things that lead to health 
disparities on a day-to-day basis in the United States also 
lead to disparities in the negative impacts of public health 
emergencies, especially for older adults and other vulnerable 
populations.
    We've made progress, but we still need to do more. I 
believe that our nation is only as prepared as our ability to 
care--to take care of older adults and other vulnerable members 
of our community. We look forward to working with you to 
continue to prepare the Nation to protect older adults during 
emergencies.
    I want to thank you again for the opportunity to share this 
information with you today, and I look forward to questions.
    [The prepared statement of Dr. Besser follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Martinez. Mr. Manning, we'll hear from you now.

STATEMENT OF TIMOTHY MANNING, DEPUTY ADMINISTRATOR FOR NATIONAL 
PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, WASHINGTON, 
                               DC

    Mr. Manning. Thank you. Chairman Kohl, Ranking Member 
Martinez, good morning.
    I'm Tim Manning. I'm the Deputy Administrator of the 
Federal Emergency Management Agency. It's a privilege to appear 
before you today on behalf of FEMA and the Department of 
Homeland Security. We appreciate your interest in, and 
continued support of, emergency management and the unique 
disaster planning requirements for those with unique needs.
    Throughout history, and throughout the history of emergency 
management, considerations for specific populations have been 
inadequate. From the 1930's, when disaster response was largely 
an ad hoc mission focused on the repair of damaged 
infrastructure, through to the present day, special-needs 
populations were often given insufficient consideration. This 
fact is evident in the 2003 California wildfires and the--when 
Hurricane Katrina devastated the Gulf Coast in 2005. During 
these events, a substantial number of individuals with special 
needs did not receive the appropriate warning, were unable to 
access shelters, went without medical intervention, or, at 
worst, perished. A subsequent review of emergency plans around 
the Nation concluded that a substantial improvement is 
necessary to integrate people with disabilities into emergency 
planning and readiness. Indeed, the needs of all populations of 
all people must be considered in planning and response.
    Numerous lessons learned reported, that followed Katrina, 
also identified a large segment of the U.S. population that may 
not be able to successfully plan for, and respond to, an 
emergency with resources typically accessible to the general 
population. Our population is one that is diverse, aging, and 
focused on maintaining independence as long as possible. The 
popularity of living situations that provide an as-needed level 
of care in the least restrictive manner is fast becoming the 
norm, and consideration must, therefore, be given to people who 
may not be able to function independently under normal 
situations, but who may need assistance in an emergency 
situation.
    FEMA's working hard to ensure that its own basic planning 
addresses special-need populations and that we are supporting 
and assisting States, tribes, and localities in this regard. We 
are also reinforcing the critical and enduring need for 
personal preparedness, encouraging individuals to adequately 
prepare themselves for disaster events, recognizing that better 
individual preparedness translates into better community 
preparedness and stronger resilience.
    FEMA's directly engaged in activities that will address 
special-needs populations, including the elderly, in 
coordination with FEMA's Office of Equal Rights, DHS's Office 
for Civil Liberties and Civil Rights, and the National Advisory 
Council, as well as State, tribal, and local agencies. The FEMA 
disability coordinator has built a viable network to ensure 
that the needs of the elderly and persons with disabilities are 
addressed during and following disasters. We are also 
developing disability and special-needs subject-matter teams to 
work with States during disasters in order to assure 
accommodation for people with disabilities and other special 
needs.
    Citizen Corps is FEMA's grassroots initiative to actively 
involve citizens in the security of their communities through 
planning and personal preparedness. At the national level, 
Citizen Corps promotes inclusion and a focus on disabilities 
and the community by integrating these priorities into our 
homeland security policies.
    Emergency management takes into consideration planning for 
the safety of every person in the community during and 
following a disaster. Taking into consideration populations 
historically considered vulnerable, at risk, or special needs, 
ultimately improves the overall community's post-disaster 
sustainability. FEMA assists States and localities with 
planning guidance for State and local preparedness efforts, and 
will shortly issue guidelines on these populations through its 
comprehensive preparedness guide number 301, Emergency 
Management Planning Guides for Special Needs Populations. This 
guide, developed in collaboration with the Office for Civil 
Rights and Civil Liberties, is currently available to all of 
the Nation's responders and communities as an interim document. 
It addresses many of the issues that will confront us in 
providing care to the elderly, ensuring that our plans and our 
procedures take all requirements, all needs into account.
    Mr. Chairman, Ranking Member Martinez, Secretary 
Napolitano, FEMA Administrator Craig Fugate, and I are 
committed to advancing our Nation's preparedness. Our efforts 
must begin with personal preparedness and a process of 
individual thinking in consideration of basic steps that each 
of us must take to help prevent and prepare for the next 
disaster. All Americans must take responsibility for preparing 
themselves and their families and their communities for the 
next disaster. In times of crisis, government plays a critical 
role in coordinating the response-and-recovery efforts, 
especially in protecting and providing for our most vulnerable 
populations. A government's first responsibility is to ensure 
the safety and well-being of the public. We believe that that 
is the cornerstone of our strategy, moving forward, and, with 
the continued support of Congress, we believe that considerable 
progress is within reach.
    Mr. Chairman, Ranking Member, thank you, and thank you, 
members of the committee, for allowing me to testify today, and 
I look forward to any questions you may have.
    [The prepared statement of Mr. Manning follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Martinez. Thank you very much, Mr. Manning--
Secretary Manning.
    Now, we hear from Secretary Beach.

 STATEMENT OF DOUGLAS BEACH, SECRETARY, FLORIDA DEPARTMENT OF 
                 ELDER AFFAIRS, TALLAHASSEE, FL

    Dr. Beach. Thank you. Good morning, Chairman Kohl, Ranking 
Member Martinez. My name is Doug Beach. I'm Secretary of the 
Florida Department of Elder Affairs.
    Thank you, I was looking for the button.
    I appreciate this opportunity to discuss ways we can best 
serve older Americans before, during, and after a disaster.
    As many of you know, earlier this decade Florida faced an 
unprecedented onslaught from nature. We had to contend with 
eight hurricanes and several additional tropical storms, all in 
a 14-month period. At that time, I served as CEO of the Senior 
Resource Alliance, which is the Area Agency on Aging, 
stretching from Orlando to Cape Canaveral. With communications, 
transportation, and just about everything else disrupted, our 
team had to scramble to address the special needs of elders. 
Working with Governor Crist for the last 2\1/2\ years as Elder 
Affairs Secretary, I have come to appreciate that no emergency 
is too small, no threat too remote, to dismiss it without doing 
some planning and preparation.
    The latest numbers tell us that Florida is home to 4.4 
million residents 60 years of age and older. We have the 
largest percentage of seniors of any State in the Nation. A 
common myth is that many of these Florida elders live in 
nursing homes, when, in fact, 95 percent of elder Floridians 
live in the community.
    Plans and procedures designed to support emergency 
operations for the general population are not always 
appropriate for seniors. We encourage each elder to help by 
taking personal responsibility for his or her own safety. 
That's why, each year, the Department of Elder Affairs 
publishes a Disaster Preparedness Guide, which we've--I've 
given the staff, and they can hand out. The guide offers tips, 
procedures, contact numbers, and even a disaster supply 
checklist, so the elders we serve, and their caregivers, can 
create a plan for any kind of hazard.
    It is vitally important for people to understand that they 
must be prepared to survive on their own for the first 72 hours 
of an emergency. Supplies and services may not be available 
until first responders complete their search and rescue 
missions and the community begins restoring critical services. 
For seniors, being ready for a disaster is a key part of 
maintaining independence. If elders and vulnerable populations 
are prepared ahead of time, they will be better able to cope 
and recover more quickly.
    As soon as we determine that a threat is out there, the 
Department of Elder Affairs establishes regular contact with 
the 11 Area Agencies on Aging. The Area Agencies then work with 
their local networks, everyone working together to make sure 
the communities most likely to be impacted have the supplies 
and resources they need.
    Additionally, the Department of Elder Affairs is part of 
the State Emergency Response Team, with a permanent seat in our 
State Emergency Operations Center. One crucial consideration 
for an elder constituency is food and nutrition. Before a 
disaster occurs, Meals on Wheels clients receive a 3-day supply 
of packaged meals that are specifically designed for seniors. 
If evacuations become necessary, they are particularly 
difficult for seniors. When seniors are forced to go without 
power, they are put at a far greater risk than the average 
person. For that reason, every Florida county has a special-
needs registry and special-needs shelters are in place to 
accommodate elders. Even self-sufficient elders may require 
special assistance during an emergency. A high-rise condo may 
remain structurally sound, but a power outage could mean the 
elevators don't function and the residents can't access medical 
care, appropriate nutrition, and medicine. Florida now requires 
that emergency generators be available to operate public 
elevators in all high-rise multifamily dwellings, including 
condos.
    Once Florida enters a recovery phase, seniors will want to 
return to their homes, but will they be able to make their way 
to grocery stores, doctors' offices, and pharmacies? For that 
reason, the Department of Elder Affairs has developed a Rapid-
Needs Assessment and Discharge Planning Form to help make these 
determinations. Elders can successfully transition back into 
the community as soon as possible, and as safely as possible.
    In order to give seniors the greatest chance to come 
through a disaster, the best possible physical and emotional 
conditions, planners must consider their distinctive needs 
beforehand. Under Governor's Crist's leadership, Florida State 
agencies stand ready to assist emergency officials in each 
community as we constantly strive to improve Florida's Disaster 
Emergency Management Plans for elders.
    I thank you for the opportunity to present this information 
today on behalf of Florida's elders, and I would be glad to 
answer questions at any time.
    [The prepared statement of Dr. Beach follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Martinez. Thank you, Secretary.
    Ms. Polivka-West, welcome, also, and we'll hear from you 
now.

  STATEMENT OF LuMARIE POLIVKA-WEST, SENIOR VICE PRESIDENT OF 
    POLICY, FLORIDA HEALTH CARE ASSOCIATION, TALLAHASSEE, FL

    Ms. Polivka-West. Good morning. My name is LuMarie Polivka-
West, and I'm Senior Vice President with the Florida Health 
Care Association. I also serve as Principal Investigator for 
the national effort funded by the John A. Hartford Foundation 
focused on hurricane and disaster preparedness and long-term 
care facilities. I am here today on behalf of the American 
Health Care Association, the National Center for Assisted 
Living, and the 1.5 million frail older Americans who reside in 
skilled nursing facilities, and the additional 1.2 million who 
reside in assisted living facilities, a group particularly at 
high risk during disasters.
    Thank you, Chairman Kohl and Ranking Member Martinez. We 
appreciate this opportunity for a national forum to discuss the 
unique challenges faced by older adults in long-term care 
facilities during disasters.
    Hurricane Katrina focused national attention on the 
disproportionate vulnerability and mortality of elders during 
disasters. When Hurricane Katrina hit, only 15 percent of the 
population at New Orleans were age 60 and older, yet data from 
Knight-Ridder found that 74 percent of hurricane-related deaths 
were in that age group.
    Not all died from the disastrous flooding. Many died from 
the heat, where the lack of the electricity to long-term care 
facilities spoiled medications, dehydration, or otherwise 
negatively impacted critical medical treatments and care 
services. Some were evacuated without their life-saving 
medications, and some very ill, aged individuals were 
transported to other States while their medical records and 
medications were left on the tarmac.
    In February 2006, the John A. Hartford Foundation responded 
to the events of Hurricanes Katrina, Rita, and Wilma by 
supporting a Gulf Coast Hurricane Summit that identified issues 
critical to improving future nursing home preparedness.
    The grant aimed to improve disaster preparedness through 
the development of a Disaster Planning Guide and software, and 
through the training exercises for nursing homes and assisting 
living facilities, and the convening of annual hurricane 
summits with national dissemination of material and findings 
through the American Health Care Association.
    Hurricanes Charlie, Gustav, and Ike forced nursing homes to 
ask an important question, Is total evacuation before 
hurricanes best for residents? Preliminary analyses from a 
National Institute on Aging grant with Brown University and the 
University of South Florida suggests that evacuation is 
difficult for nursing home residents. If the study results 
continue to indicate that nursing home residents may fare 
better staying in buildings that will not flood, the Federal 
and State governments should help with the hardening of 
physical plants to withstand the force of winds.
    Due to the very vulnerable and complex populations that we 
serve, it is essential that we work together with policymakers 
to better prepare ourselves for a disaster. I would like to 
highlight six broad areas for critical review and consideration 
and better preparing and responding to large-scale disasters 
and evacuations.
    First, the National Disaster Medical System should be 
reconfigured to support the evacuation and care of nursing home 
patients, assisted living residents, and people residing in 
residential care facilities for the elderly and developmentally 
disabled.
    Second, it is essential that we, as a Nation, finally 
expedite the development of interoperable electronic health 
records.
    Third, the Stafford Act excludes for-profit nursing homes 
that provide 80 percent of the care for nursing home residents 
through publicly funded Medicare and Medicaid from receiving 
Federal financial assistance during and after disasters. As a 
result, three-fourths of our Nation's nursing facilities are 
not eligible for this critical and necessary Federal 
assistance, and, at many localities, for-profit nursing 
facilities may be the only long-term care provider available. 
Amending the Stafford Act through the Nursing Home Emergency 
Assistance Act of 2009 would allow all the long-term care 
providers access to disaster relief funding.
    Fourth, we must address emergency communications and faulty 
assumptions that communications in public-service 
infrastructure would still be in place in the aftermath of a 
disaster.
    Fifth, the Federal Government agencies need to work 
together in identifying requirements for long-term care 
facilities and their all-hazard approaches to disaster 
preparedness. For example, preparedness for the H1N1 influenza 
pandemic involves the CDC, OSHA, CMS, HHS, DHS, and the State 
Departments of Health.
    Sixth, new protocols are necessary to improve 
communications and coordination between all providers and local 
State and Federal Governments with a national response 
framework as the guide for planned development at all levels. 
The long-term care community alone cannot protect or prepare 
effectively for disasters. We must be a part of a larger 
unified national response.
    I would like to thank the committee for providing this 
opportunity to share our thoughts. I, along with the American 
Health Care Association, National Center for Assisted Living, 
and the Florida Health Care Association, look forward to 
continuing a positive, constructive dialog that results in the 
only statistic that matters: the number of lives saved by an 
intelligent, well-executed disaster plan that includes the 
needs of older adults and persons with disabilities in long-
term care facilities.
    Thank you.
    [The prepared statement of Ms. Polivka-West follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Martinez [continuing]. Now, we hear from you, Ms. 
Markwood.

STATEMENT OF SANDY MARKWOOD, CHIEF EXECUTIVE OFFICER, NATIONAL 
     ASSOCIATION OF AREA AGENCIES ON AGING, WASHINGTON, DC

    Ms. Markwood. Thank you. Good morning, Chairman Kohl, 
Ranking Member Martinez. My name----
    Senator Martinez. I don't think your mike is on.
    Ms. Markwood. Is it on now? Can you hear me? Great. It 
works? OK.
    Senator Martinez. There you go.
    Ms. Markwood. My name is Sandy Markwood, and I'm the Chief 
Executive Officer of the National Association of Area Agencies 
on Aging. n4a represents the 629 Area Agencies on Aging, or 
``triple-As,'' as we all them, and 246 Title 6 Native American 
programs that, today, and every day, are assisting millions of 
older adults and caregivers in communities across the country.
    I want to thank the committee for inviting n4a to testify 
on the issue of emergency preparedness and the ongoing efforts 
of Area Agencies and Aging Services Network to meet the special 
needs of older adults in advance of, during, and after a 
disaster or an emergency.
    As has been pointed out by the other panelists, AAAs have 
found that in disasters older adults have distinct needs that 
need to be present, and challenges that communitywide emergency 
planning and response efforts need to address. Each stage of an 
emergency during evacuations and emergency shelters or when 
returning to the community needs to be handled differently when 
dealing with frail older adults.
    During a crisis, frail seniors may need extensive health 
supports and services to survive. Many times, their needs are 
too complex, serious, and individualized to be treated with a 
one-size-fits-all approach that shelters and relief 
organizations are able to offer as they work to serve the needs 
of the broader population. Volunteers and workers unfamiliar 
with older adults' needs may not recognize or know how to deal 
with the important signals that would indicate a senior's state 
of mind or their body. Addressing the needs of those with 
chronic conditions and dementia become particularly difficult 
in a disaster situation.
    Providing continuity of services to older adults after 
disasters as they move from shelters to temporary housing also 
poses significant challenges. AAAs have experienced difficulty 
locating older adults who they know need gap-filling services 
due to regulations that prevent emergency response agencies 
from disclosing their new location once they've moved from a 
shelter to a temporary housing. AAAs have also found it 
difficult to assist disaster victims in making the transition 
back into the community, back into their home, due to lack of 
post-disaster resources available for such necessities as 
temporary housing, home repairs, and chore services.
    Pulling your life back together after a disaster is 
difficult for anybody of any age, but for older adults, the 
challenges can be as life-altering and as life-threatening as 
the disaster itself.
    During last year's deadly floods in Iowa, nearly 65,000 
Iowans age 60 and older requested assistance. Some of these 
older adults required a wide range of supports beyond what FEMA 
and other entities could offer. What we heard from our members 
in Iowa is an example of the thousands of older adults that 
sought AAA assistance. A typical request would come from an 88-
year-old woman who had lost everything in the flood. She would 
need help securing replacement prescription medications and 
other medical devices, navigating the disaster relief channels 
and paperwork, including handling personal financial affairs, 
especially if a family member wasn't present; managing her 
activities of daily living, particularly if her regular 
caregiver was displaced by the flood; and identifying 
appropriate affordable short-term housing until she can return 
home. Without this level of assistance, she would be forced to 
move into an unwanted and expensive institutional-care 
settings, many times located in another community, and, many 
times, for the rest of her life.
    In order to succeed as the first line of response for older 
adults in disasters, the Aging Services Network must have 
better access to decisionmakers to be directly involved in 
long-range planning, to be at the table in order to coordinate 
emergency services, and to have adequate resources, as well as 
the technology and communication tools necessary, to adequately 
respond to the needs of older adults.
    To strengthen national, State, and local efforts to address 
the needs of older adults in emergencies, n4a recommends that 
the following steps be taken:
    First, we need to promote, Federal, State, and local 
information-sharing. There needs to be a consistent policy to 
ensure that FEMA registration information for the age-60-and-
older population is shared with State units and AAAs in 
federally declared disaster areas.
    Second, we need to make community-level special-needs 
registries a high priority. Federal grant funding should be 
established through the Administration on Aging to support 
community-level work by AAAs to develop emergency preparedness 
registry systems for older adults and special-needs 
populations, utilizing geographic mapping technology.
    Third, we need to reinforce existing Federal policies to 
formalize coordination plans. Using the great experience of 
Florida as a national model, Congress should build on the 
emergency preparedness provisions added to the Older Americans 
Act in 2006 by requiring that the FEMA and other State and 
local emergency preparedness agencies formalize coordination 
plans with the Aging Services Network.
    Fourth, create a DHS-AOA interagency education program. We 
need to encourage the Department of Homeland Security and AOA 
establish an interagency program that would facilitate cross-
agency training opportunities and provide the on-the-ground 
orientation to both networks on how they can more effectively 
work together and better utilize each other's resources during 
disaster planning, response, and recovery efforts.
    Also, finally, we need to urge Congress to fulfill the 
promise of the Older Americans Act by funding its emergency 
planning provisions, directing resources to the Administration 
on Aging, State Units on Aging, and AAAs to support these 
critical efforts.
    After the floods in Iowa, AOA only had $50,000 of disaster 
aid to distribute to 11 flood-ravaged AAAs, out of the total 
disaster allocation of AOA of $300,000. This just isn't enough 
resources to meet the need.
    As Congress looks ahead to the reauthorization of the Older 
Americans Act in 2011, we encourage policymakers to strengthen 
the Older Americans Act Disaster Assistance Program.
    Thank you, Chairman Kohl, Ranking Member Martinez, for 
holding today's hearing and for calling the necessary attention 
to the special needs of older Americans during times of 
disasters. I'd be happy to answer any questions.
    [The prepared statement of Ms. Markwood follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Martinez. Thank you all very, very much for your 
enlightening testimony. We will have some questions now.
    I want to begin with Dr. Besser. If we could ask you, where 
are we on the H1N1? What are the prospects for the fall? I 
think, in general, we would all, since we have you here, like 
to know about this, for general population. Then if you could, 
more specifically, speak to the potential for it to impact 
seniors since the virus didn't seem to be affecting seniors 
particularly, what are the prospects that it might come back in 
a different form? Just where are we with the whole thing?
    Dr. Besser. Thanks very much for that question.
    Yeah, each Friday we report our domestic case totals, and, 
as of June 19, there were more than 21,000 cases reported here 
in the United States, and 87 deaths. I mean, as you know, on 
June 11, the World Health Organization put us into phase 6 and 
declared a global pandemic, which was really not an indication 
that this is any more severe, but an indication that this is a 
virus that is spreading easily, it's a virus for which people 
don't have much in the way of immunity, and it's a virus that 
we expect to continue to cause disease around the world.
    We base a lot of our assumptions on what's taken place in 
pandemics in the past, but it seems that the influenza virus is 
extremely cagey and tends to outsmart us when we think we 
understand what's happening. We would have predicted that, as 
the weather has gotten hotter now, that the virus would have 
gone away and that we would--that we'd be looking toward the 
fall for a return of this virus. In actuality, we are still 
seeing a fair amount of influenza activity around the country. 
As you've been reading in the press, there have been a number 
of outbreaks at summer camps that are causing a lot of 
difficulty in those institutions.
    There is some promising information in the area of elderly 
individuals, and that is that it appears that there is some 
protection. As we look at who has been most impacted by this 
strain, we are seeing the--primarily, disease in younger 
individuals. Only 1 percent of the cases are in persons 65 
years and older; 4 percent of the hospitalizations have been in 
that age. We don't know if it's from repeated immunizations 
over people's lives or exposure to strains of influenza over 
the course of their lives, but there is some degree of 
protection.
    What we've seen from previous pandemics is that viruses can 
change. An influenza virus is--the reason we need a shot every 
year is that there tends to be some change in the virus each 
year, and we need to be protected in that manner. We're working 
with the World Health Organization and other international 
organizations to try and see what is happening to this virus 
during the flu season that's taking place now in the Southern 
Hemisphere. That will help guide a lot of what we recommend for 
the fall.
    There are a couple of things that we clearly recommend for 
seniors for the fall. That's to get their annual flu shot, to 
make sure, as well, that they have their pneumonia shot. Each 
year, only two-thirds of seniors get their flu shot, and 
slightly more than half get their pneumonia shot, or have had a 
pneumonia shot. Those are things that, regardless of whether 
there's a pandemic, are very important to do. Each year, on 
average, 35--36,000 Americans die from influenza, and that's 
primarily an issue in those with underlying medical conditions 
and the elderly. So, even if this pandemic does not affect the 
elderly disproportionally, it's very important that the elderly 
are protected against seasonal flu.
    Senator Martinez. So, at a minimum, if we can take a 
message from your comments for seniors specifically, get a flu 
shot and get a pneumonia shot, particularly this season.
    Dr. Besser. Yes, sir. Yeah, those are very important. Then, 
understand where you need to get your information. Because it 
may be that this virus changes in the Southern Hemisphere, and 
it may be that seniors are one of the groups for whom the new 
vaccine might be recommended. At this point, studies are going 
to be done to look at a new vaccine, and then the 
administration will determine whether or not to recommend 
vaccination for either high-risk individuals or others.
    Senator Martinez. Thank you.
    Secretary Beach, if we can turn to other types of 
disasters, I know we've, in Florida, as you testified, dealt 
with the hurricane problem, also--I believe it was Ms. 
Markwood--talked about the floods. Can we focus on those issues 
now and what level of preparedness you think exists across 
Florida that the Nation could also look to as a model, or 
benefit from?
    Dr. Beach. I think one of the things that we do in Florida 
that's particularly unique is, we do a lot of practicing. We 
bring together folks--tend to be two or three times a year, 
typically led by county Emergency Operations Centers, 
bringing--make sure that all the partners for disability 
groups, senior groups, and the like, have a plan in place, can 
identify who the special-needs folks are on their registry, 
and, most importantly, have a way to coordinate with some of 
the outreach organizations.
    When you were mayor in Orlando, Orange County, you put 
together an Interim Commission on Aging, and one of the things 
that came out of that Interim Commission on Aging was a 2-1-1 
system for Brevard, Orange, Osceola Counties. The advantage of 
2-1-1 was how we could disseminate that information over a 
broad number of people very, very quickly. I think once you 
coordinate the 2-1-1 system with aging and disability resource 
centers, which are funded at the Federal level, which we have 
in each Area Agency on Aging in Florida, it enables us to get 
the process jumpstarted and at least have a plan in place 
before anything happens.
    Senator Martinez. Ms. Polivka-West, if we can ask you--fit 
into the picture of both the potential for a flu pandemic 
situation that could impact seniors, as well as just plain 
natural disasters, how are we doing? The whole issue of command 
management for nursing homes, and how are those going to impact 
our preparedness in the future?
    Ms. Polivka-West. Well, again, I would use the model of 
Florida, in terms of an all-hazards approach to disaster 
preparedness planning and response and recovery. At the heart 
of that is the inclusion of long-term care in the State's 
emergency response system. This is what we recommend for the 
national--the Federal system to include--long-term care, the 
vulnerable populations that reside in skilled nursing 
facilities and assisted living facilities, as a part of the 
national response framework. They are not included, at this 
time.
    So, I go back to how we're doing--our disaster preparedness 
planning in Florida--for example, for the hurricane season, 
that we've now begun. We have started our drills. We work with 
our local Emergency Operations Centers at the--each local 
level. We have a seat at the table with the EOC. At the State 
level, we have a desk. That's Florida Health Care Association's 
desk--at the Emergency Operations Center. This started with 
Craig Fugate, when he was at--with the Emergency Management 
Operations. We work very closely with our Emergency Support 
Function 8, the Health Desk, and we coordinate with other parts 
of the emergency management system.
    But, what we've learned, after the hurricane season of 2004 
and 2005, is that we had to be there, because that was the way 
we got to the power companies for power restoration. Long-term 
care is not a prioritization for power restoration. We have the 
same priority as the convenience store. So--unlike hospitals--
and so, we have to be there. We have to tell them what kind of 
vulnerable populations we have on ventilators, on oxygen. They 
have--our frail, vulnerable elders have to be served. So, we 
know we can do it in Florida, we know we can do it at the 
rest--with the rest of the country, but we have to do it State 
by State at this point, because we are not a part of that 
national response framework, at this time.
    Although I would like to give credit to HHS's Assistant 
Secretary for Preparedness and Response, because they have 
included us through the American Health Care Association in 
their gap analysis and planning.
    Senator Martinez. That's great. I don't think there's any 
question that having a desk at the EOC makes an incredible 
difference. I think----
    Ms. Polivka-West. It does.
    Senator Martinez [continuing]. It really has been--in my 
former experience as mayor, you can really see a difference 
when someone is at the desk and they are part of the whole 
operation. It makes a difference.
    Mr. Chairman, I think I'll cede to you and maybe come back 
for a question or two.
    The Chairman. Mr. Manning, you spoke about the importance 
of personal preparedness among seniors prior to a disaster. Can 
you describe some of the things that seniors living at home 
need to do to be prepared?
    Mr. Manning. Thank you, Mr. Chairman. Certainly.
    Having a prepared and--having a population that is 
expecting a disaster, that has taken those steps around their 
home and in their community and working with their neighbors to 
ready themselves for a disaster can lead to a community that is 
more resilient and may not require the assistance of government 
in the first place. If we can prevent a disaster from 
becoming--a bad event from becoming a disaster, then we've 
solved the problem before we even gotten there.
    Some of the specific things that can be done around the 
home include having a--having--something as simple as having 
communication plans among homeowners--I mean, among the 
household members, among neighbors in a higher density living 
environment, where people understand that, once they've assured 
that they themselves are OK and that their spouses, their 
family members are OK, that their first responsibility should 
be: check on their neighbors. As we can develop planning and a 
capacity of community within a neighborhood, that is something 
that will go a long way toward providing a more robust 
community resilience.
    Other things that could be done in a home is having--we've 
said over and over again, having 3 days of food and water, 
having supplies prepared in your home, in your facility, so 
that you don't need to require--you don't require the 
assistance of government, in the short term, which may not be 
able to get there. But, it's important to also recognize that 
many people aren't able to do that, that having--saying having 
food and water for 3 days is a good thing, but many individuals 
aren't exactly sure where they're going to get dinner tonight, 
much less where--having 3 days on hand. We have to keep--we, 
those that plan for disasters, have to keep that in mind, as 
well.
    The Chairman. Thank you.
    Ms. Markwood, whether it's providing a ride to the pharmacy 
or delivering meals, local aging service providers are on the 
front line, meeting the needs of seniors. You recommend that 
DHS and the Administration on Aging work together to include 
local entities in planning for emergencies. Can you speak a 
little bit more about that?
    Ms. Markwood. Senator Kohl, what we see is the need for all 
of the coordination--and I do believe that Florida is a 
terrific model, because you've had to be, because you've 
experienced so many disasters--it's bringing together Homeland 
Security, bringing together emergency planning and preparedness 
with Health and Human Services to make sure that those critical 
needs are met. Oftentimes, that takes cross-training.
    Again, in looking at emergency preparedness organizations, 
they have to meet the needs of the broader-based population. 
What you've heard today in the panel is the needs of older 
adults, especially those frail older adults, is different, and 
it needs to be--there needs to be cross-training to make sure 
that they can recognize the needs of older adults, not only 
those physical needs, but also recognizing the dementia, and 
there other issues, cognitive needs, that are there, as well, 
and also to do the cross-training and coordination so that 
those needs get met. In looking at that, it is important to 
make sure, as well, that resources are shared among those 
agencies at the local level.
    Ultimately, it comes down to what happens on the ground at 
the local level, and there needs to be cross-training and 
coordination to make sure that the needs of older adults are 
met in those situations.
    The Chairman. Thank you.
    Ms. Polivka-West, we all understand that, during mass 
evacuation times, the readiness and availability of vehicles to 
transport seniors is critical, and, without it, we can't get 
the job done. Would you talk about that and what your thoughts 
are on whether we're prepared and how we deal with that?
    Ms. Polivka-West. We consider transportation to be our 
Achilles heel in disaster preparedness for long-term care. In 
fact, we've helped two transportation summits at the national 
level with the motor carriers--the American Bus Company, 
Trailways--the major carriers with the American Health Care 
Association and National Center for Assisted Living--to address 
the problems, in terms of the lack of transportation when it's 
needed. Because of competing priorities with populations to be 
served, we know, through Hurricane Charlie, what happened when 
that went through Port Charlotte. All of the ambulances were 
taken by the hospitals; there were none left for other assisted 
living facilities or nursing homes. So, we had to pull in 
transportation from the northern part of the State, and it took 
many hours to get them down into South Florida. So, we learned 
from those experiences, that we had to have a template for 
transportation providers. We have to have redundancy in 
transportation planning. We have to--we advise facilities to 
have three providers with contracts, and to ensure that they 
renew those contracts each year. But, even then, we know there 
could be problems, because--and you never have enough 
transportation potential for a huge disaster. We know this. So, 
that's why we're focusing on hardening facilities, the physical 
plants. We wish that you would get the banks to let up on some 
of that money that we've given so that we could have some 
physical plant hardening with facilities--that's just an 
aside--in terms of disaster preparedness.
    But, the profit margins are very lean with long-term care 
providers, because they get primarily Medicare and Medicaid 
funding. But, these plants, these physical plants, need to be 
hardened in order to shelter in place as much as possible so 
you don't need transportation for evacuation, except when you 
know you've got surge zones that you have to protect or 
during--if the--for example, if you have earthquakes and you 
have to move populations, you're going to have to have 
transportation to be aware of what the needs are of our 
vulnerable elder adults. We're doing that through the American 
Health Care Association, the transportation summits that 
started in Florida 3 years ago.
    The Chairman. Thank you.
    Mr. Chairman.
    Senator Martinez. Well, I want to come back to the health 
issue, and maybe just ask you, Dr. Besser, but others on the 
panel, perhaps to comment.
    If a health emergency were to arise that really impacted 
seniors, how do all of these various agencies that are here 
today and all the things that we've done to prepare for natural 
disasters, how prepared are we to deal with a health emergency, 
as opposed to a natural disaster or--a typical natural-disaster 
type of emergency?
    Dr. Besser. We have taken an all-hazards approach to 
preparedness, as was mentioned earlier. There has been an 
enormous investment over the past 5, 6 years, in public health 
emergency preparedness. This has led to great improvement in 
the ability of public health to engage with the various 
communities.
    We know that, in the setting of an emergency, whether it's 
a natural disaster, whether it's a new emerging infection or 
whether it's something deliberate, the coordination that takes 
place at the local level is a key success factor. What the 
resources that have gone to public health have allowed is for 
public health to make those introductions now, to be part of 
planning at the local level. We're hearing about some planning 
efforts that need to be enhanced. That's true across the 
country.
    One of my concerns, in terms of that, is that we hear from 
public health that the economy is leading to massive layoffs in 
public health. Over 11,000 people, according to the Association 
of State and Territorial Health Officers, are losing their jobs 
at the State and local level in public health. That will have 
consequences in the setting of a disaster.
    We partner with the American Red Cross. We work very 
closely with FEMA and others in DHS on planning. But, the work 
that we do at the national level is only as good as the systems 
that are in place at the local level.
    Florida is clearly a gold standard, and that's because they 
have the opportunity to exercise every year and respond every 
year because of hurricanes. Other parts of the country don't 
have that experience and really rely on the resources that they 
get to do the exercising, the planning, the improvements in 
their plans on a regular basis.
    Senator Martinez. Thank you.
    Any other comments? Yes, Secretary Beach?
    Dr. Beach. Thank you. We do a lot of tests to see how 
responsive we'll be. As an Area Agency on Aging Director, we 
did a pandemic flu test of the EOC, Emergency Operations 
Center, in Brevard and in Orange County. As Secretary, we've 
also had a dry run on a terrorist attack in Tallahassee, as 
well as a pandemic flu issue in the State of Florida. What we 
find out--much of it came through Craig Fugate's leadership--
but, we find out, just by going through those tests, those dry 
runs, so to speak, and making sure that everybody's 
coordinated, at the end of the day. We know that 10 minutes 
into an emergency, most of our plans will go out the window. 
But, in any case, at least we're--we've planned, and at least 
we have some sort of idea as to what we want to do and how we 
want to do it.
    Senator Martinez. Well, one last thing I would say is also 
in terms of Florida's success with natural disasters, it's 
relying on the local situation for the first 72 hours, because, 
you know, Federal response is always going to be coming after. 
I know you and I talked yesterday about the importance of that, 
and I wonder if you might comment on that, as well.
    Dr. Beach. Yes. During Fay, the Surgeon General and I 
traveled up and down the East Coast from Port St. Lucy all the 
way up to Jacksonville, and we went to each of the EOCs, the 
counties that it affected during that tropical storm, terrible 
flooding during that tropical storm. The EOC directors were 
very kind to us, but we got the feeling that they kind of 
wanted to elbow us out there, because they had some pretty 
important business to do and we were in the way.
    But, at the end of the day, what we find in Florida is 
that, during preparation, the State Unit on Aging, Federal 
partners, are very, very important in the preparation stage. 
But, once the 72-hour period comes into play, it's all county 
folks and first responders, as well as local providers, in how 
they get out there. Then, after the first 72 hours, then we can 
come in with, not only our State resources, but Federal 
resources, to try to do the cleanup and make sure that 
everybody is in the right place at that time.
    Senator Martinez. Do you have anything else?
    Well, thank you all very, very much. I think one of the 
real takeaways, for me, is the fact that nursing homes are not 
prioritized in restoring power. I think that's something that 
really ought to be highlighted as a flaw in the system, because 
when you restore hospitals, obviously they should be at the top 
of the list, but very close thereafter should be nursing homes. 
That ought to be way ahead of the convenience store down the 
street.
    We require generators now at our gas stations in Florida. 
Obviously, there are other places that also should probably 
have power to be able to take care of themselves for the first 
24 hours or so. So, that's another consideration, as well.
    But, this is all very important, and I appreciate all of 
you highlighting it to us. For us Floridians, this is the 
beginning of hurricane season, so this always highlights for us 
the need for personal preparedness, for people to take matters 
into their own hands, have a personal plan of how they would 
cope with an emergency. Then, beyond that, for all our 
governmental agencies to continue to do the great job that they 
do.
    As we talk about our national situation, I do hope that we 
will keep an eye on the H1N1 and hope that this fall we will 
not be in a bigger problem, but also preparing ahead of time, 
and having, particularly, seniors get a flu shot and a 
pneumonia shot sounds like good advice, as well.
    OK, well, thank you very much.
    This concludes the hearing. We're adjourned.
    [Whereupon, at 12:17 p.m., the hearing was adjourned.]

                                 <all>

</pre></body></html>
